COMMONWEALTH of VIRGINIA
Office of the Attorney General

202 North Ninth Street
Richmond, Virginia 23219
804-786-7240
FAX 804-371-0200
theytens@oag.state.va.us

Mark R. Herring
Attorney General

October 9, 2019
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk
One First Street, N.E.
Washington, D.C. 20543
Re:

Jordan v. Va. Dep’t of Corrections, No. 19-235

Dear Mr. Harris:
On August 19, 2019, the petition for a writ of certiorari in the abovereferenced capital case was filed. On September 6, 2019, this Court granted our
request for a thirty-day extension of time to file the response brief.
On account of our current workload, including our office’s upcoming argument
in Mathena v. Malvo, No. 18-217, we respectfully request a second, fifteen-day
extension of time, until November 7, 2019, to file the response brief.
We thank the Court for its consideration.
Very truly yours,
/s/ Toby J. Heytens
Toby J. Heytens
Solicitor General of Virginia
Counsel of Record for Respondent
cc:

James William Craig, Esquire
Counsel for Petitioners

